No. 20-1768
In the

Supreme Court of the United States
__________________
RON FENN,
v.

Petitioner,

CITY OF TRUTH OR CONSEQUENCES, MICHAEL
APODACA, POLICE CHIEF LEE ALIREZ, AND
DANIEL HICKS,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

__________________

BRIEF IN OPPOSITION
__________________
STEPHEN S. HAMILTON
Counsel of Record
KALEB W. BROOKS
MONTGOMERY & ANDREWS, P.A.
P.O. Box 2307
Santa Fe, New Mexico 87504-2307
(505) 982-3873
shamilton@montand.com
Counsel for Respondent
Daniel Hicks
August 13, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
With respect to Respondent Hicks, the first and
dispositive issue on appeal is whether the Court of
Appeals for the Tenth Circuit correctly concluded that
the property located at 301 S. Foch St., Truth or
Consequences, New Mexico, was not the type of public
forum in which the government must allow picketing
and other forms of protest. If so, then Petitioner Fenn
was not engaged in any constitutionally protected
activity at the time of his arrest, and Respondent
Hicks’s signing a trespass order did not impinge any
constitutional right.
If the Court resolves the first issue in Petitioner
Fenn’s favor, the second issue on appeal is whether the
district court properly granted qualified immunity to
Respondent Hicks where Petitioner Fenn failed to
identify any case law standing for the proposition that
Respondent Hicks’s conduct violated First Amendment
law that was clearly established at the time of the
incident giving rise to this litigation.

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iv
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
I.

Factual Background . . . . . . . . . . . . . . . . . . . . 2

II.

Procedural History . . . . . . . . . . . . . . . . . . . . . 4

III.

Misstatements within the Petition . . . . . . . . . 6

REASONS TO DENY THE PETITION . . . . . . . . . 11
I.

The Tenth Circuit Correctly Applied the
Standards Articulated by this Court to
Conclude that the Center Was Not the Type
of Public Forum in which the Government
Must Allow Picketing and Other Forms of
Protest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

II.

The District Court Correctly Applied the
Standards Articulated by this Court to
Conclude that No Clearly Established First
Amendment Precedent Put Respondent
Hicks on Notice that Signing a Trespass
Notice May Violate Fenn’s Constitutional
Rights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

iii
APPENDIX
Complaint Due to Deprivation of Civil Rights
and Malicious Abuse of Process in the United
States District Court for the District of New
Mexico (July 5, 2018) . . . . . . . . . . . . . . . . . . App. 1

iv
TABLE OF AUTHORITIES
CASES
Adderley v. Florida,
385 U.S. 39 (1966). . . . . . . . . . . . . . . . . . . . . 12, 13
Arkansas Educ. Television Comm’n v. Forbes,
523 U.S. 666 (1998). . . . . . . . . . . . . . . . . . . . . . . 12
Ashcroft v. al-Kidd,
563 U.S. 731 (2011). . . . . . . . . . . . . . . . . . . . 18, 19
Brosseau v. Haugen,
543 U.S. 194 (2004). . . . . . . . . . . . . . . . . . . . . . . 18
Cornelius v. NAACP Legal Def. & Educ. Fund, Inc.,
473 U.S. 788 (1985). . . . . . . . . . . . . . . . . 12, 14, 16
Cutter v. Wilkinson,
544 U.S. 709 (2005). . . . . . . . . . . . . . . . . . . . . . . 14
Doe v. City of Albuquerque,
667 F.3d 1111 (10th Cir. 2012). . . . . . . . . . . . . . 15
Green v. Post,
574 F.3d 1294 (10th Cir. 2009). . . . . . . . . . . . . . 17
Greer v. Spock,
424 U.S. 828 (1976). . . . . . . . . . . . . . . . . . . . . . . 13
Harlow v. Fitzgerald,
457 U.S. 800 (1982). . . . . . . . . . . . . . . . . . . . . . . 17
Hawkins v. City & Cnty. of Denver,
170 F.3d 1281 (10th Cir. 1999). . . . . . . . . 6, 13, 14
Klen v. City of Loveland,
661 F.3d 498 (10th Cir. 2011). . . . . . . . . . . . . . . 20

v
Kreimer v. Bureau of Police for Town of
Morristown, 958 F.2d 1242 (3d Cir. 1992) . . 13, 15
Malley v. Briggs,
475 U.S. 335 (1986). . . . . . . . . . . . . . . . . . . . . . . 17
McCullen v. Coakley,
572 U.S. 464 (2014). . . . . . . . . . . . . . . . . . . . . . . 12
McGlone v. Bell,
681 F.3d 718 (6th Cir. 2012). . . . . . . . . . . . . . . . 15
Mullenix v. Luna,
577 U.S. 7 (2015). . . . . . . . . . . . . . . . . . . . . . . . . 17
New England Reg. Council of Carpenters v. Kinton,
284 F.3d 9 (1st Cir. 2002) . . . . . . . . . . . . . . . . . . 14
Nieves v. Bartlett,
__ U.S. __, 139 S. Ct. 1715 (2019) . . . . . . . 7, 8, 19
Pearson v. Callahan,
555 U.S. 223 (2009). . . . . . . . . . . . . . . . . . . . 17, 18
Perry Educ. Ass’n v. Perry Loc. Educators’ Ass’n,
460 U.S. 37 (1983). . . . . . . . . . . . . . . . . . . 1, 12, 13
Saucier v. Katz,
533 U.S. 194 (2001). . . . . . . . . . . . . . . . . . . . . . . 18
Swanson v. Town of Mountain View,
577 F.3d 1196 (10th Cir. 2009). . . . . . . . . . . . . . 17
T.D. v. Patton,
868 F.3d 1209 (10th Cir. 2017). . . . . . . . . . . . . . 18
United States v. Grace,
461 U.S. 171 (1983). . . . . . . . . . . . . . . . . . . . 13, 15

vi
United States v. Kokinda,
497 U.S. 720 (1990). . . . . . . . . . . . . . . . . 12, 13, 14
U.S. Postal Serv. v. Greenburgh Civic Ass’n,
453 U.S. 114 (1981). . . . . . . . . . . . . . . . . . . . . . . 13
Verlo v. Martinez,
820 F.3d 1113 (10th Cir. 2016). . . . . . . . . . . . . . 13
White v. Pauly,
__ U.S. __, 137 S. Ct. 548 (2017) . . . . . . . . . . . . 17
STATUTES
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . 4, 5, 8, 10, 19
NMSA 1978, § 30-14-1(C)(1995) . . . . . . . . . . . . . . . 13
RULES
Fed. R. Civ. P. 12(b)(6) . . . . . . . . . . . . . . . . . . . . . . 1, 7
Sup. Ct. R. 12 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 12
Sup. Ct. R. 15(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

1
INTRODUCTION
This case arose from Petitioner Fenn’s arrest and
removal from the property at 301 S. Foch St., Truth or
Consequences, New Mexico, known as the Lee Belle
Johnson Center (“Center”), for criminal trespass.
Respondent Hicks played a bit part in the events
leading to the arrest. Hicks signed a trespass notice
withdrawing consent on behalf of the New Mexico
Spaceport Authority, doing business as Spaceport
America, to access the area of the Center that the City
of Truth or Consequences leased for use as the
Spaceport America Visitor Center. The Visitor Center
was not in operation at the time. Fenn claimed that
Hicks’s signing the notice was retaliation for Fenn’s
speech protesting the City’s conversion of the property
to a visitor center from its prior use as a senior center.
The district court dismissed the claims against Hicks
pursuant to Federal Rule of Civil Procedure 12(b)(6),
and the Tenth Circuit affirmed.
Contrary to Fenn’s insistence otherwise, this is not
a case to test the nascent limits of qualified immunity.
The Tenth Circuit’s opinion in this matter relies on
well-established law distinguishing the protections
afforded to citizens under the First Amendment in
traditional public forums from those applicable to
nonpublic forums. Perry Educ. Ass’n v. Perry Loc.
Educators’ Ass’n, 460 U.S. 37 (1983). Applying that
standard, the Tenth Circuit concluded that the Center
is not a traditional public forum, and Fenn offered no
argument that the limitations on speech in this case
would be unreasonable in a nonpublic forum or that the
Center was a designated public forum. Fenn has

2
identified no—and there are no—novel questions of law
or legal questions on which the Tenth Circuit’s opinion
is inconsistent with the precedent of this Court or the
holdings of any coordinate court of appeal.
Accordingly, there is no good reason for the Court to
grant certiorari in this case. Sup. Ct. R. 12.
Moreover, even if Petitioner Fenn established that
his ultimate arrest was a constitutional violation in
this case, he has not, in successive rounds of briefing
before the district court, Tenth Circuit, and this Court,
ever cited any precedent that clearly established that
a state government official’s signing a trespass notice
may violate First Amendment rights. In the absence of
clearly established law that is particularized to the
facts of the case, Hicks is entitled to qualified
immunity because no reasonable official in his position
would have notice of a potential constitutional
violation. On this basis, the district court correctly
determined that, in the ultimate analysis, the
constitutional questions are unnecessary to dispose of
Fenn’s claims against Hicks.
STATEMENT OF THE CASE
I.

Factual Background

Spaceport America is a New Mexico state
governmental entity. [Pet’r’s App. 2a]. Hicks was, at
all relevant times, Spaceport America’s executive
director. [Id.]. Spaceport America leases space for its
visitor center in the Center. [Id.] Prior to being used
by Spaceport America (and other tenants), the Center
was a senior center that Fenn frequented. [Id.] Fenn

3
publicly protested the closing of the senior center and
the use of the Center for other purposes. [Id.]
Fenn regularly frequented the Center for various
purposes after the senior center closed. Beginning in
2015, Truth or Consequences police officers regularly
responded to the Center in response to calls about
Fenn’s presence and/or conduct. [Id. at 3a-4a]. As
stated in his Complaint, which Hicks attaches as an
Appendix to this response for the Court’s convenience,
on June 26, 2015, another building occupant, Ms.
Larena Miller, reported to police that Fenn made her
feel unsafe. [Resp’t Hicks App. 3-4 at ¶¶ 11-15]. Police
observed Fenn handing out business cards and
attempting to sell videos to visitors. [Id. App. 4, 5 at
¶¶ 16, 21]. Truth or Consequences Police officers
investigated and determined that Fenn did not have a
license to engage in this solicitation, and Fenn was
charged with, and convicted of, conducting business
without a license. [Id. App. 5 at ¶¶ 22-24]. After these
incidents, another individual associated with Spaceport
America, Rosemary Bleth, issued a trespass
authorization restricting Fenn from entering the
Center. [Id. App. 5 at ¶¶ 19-20].
The trespass order notwithstanding, Fenn
periodically returned to the Center for various
purposes during 2016. [Id. App. 6 at ¶¶ 25-26]. Then,
on May 5, 2017, a building occupant called the Truth or
Consequences Police to report that Fenn was in the
Center in violation of the trespass order and that he
(the occupant) had concerns about expensive items
being damaged or stolen. [Id. App. 6-7 at ¶¶ 28-32].

4
At this time, Truth or Consequence police officers
concluded that the trespass order needed to be updated
and met with Hicks. [Id. App. 6-7 at ¶ 32]. Hicks
signed the updated trespass authorization based on the
prior incidents and to prevent future disruptions on
May 11, 2017. [Id. App. 7 at ¶ 33].
Fenn received a copy of the order on May 12, 2017.
[Pet’r’s App. at 21a]. Fenn returned to the Center on
June 4, 2017, and June 18, 2017. [Id.] Fenn was
arrested on June 18, 2017. [Id. at 22a]. Petitioner has
not alleged that Hicks was involved in this arrest or
the subsequent prosecution. [Id. at 36a].
II.

Procedural History

Fenn filed this case in the United States District
Court for the District of New Mexico against all
Respondents. [Resp’t Hicks App. 1]. Fenn brought
three claims, only one of which applied to Hicks. [Id.
App. 11-12 at ¶¶ 59-67]. With respect to Hicks,
Appellant alleged violations of his First Amendment
rights and sought damages under 42 U.S.C. § 1983.
[Id.]
Hicks filed his Motion to Dismiss based on a
qualified immunity theory, arguing specifically that the
law was not clearly established. [Pet’r’s App. at 35a].
The parties fully briefed the motion. The district court
ruled that Hicks was entitled to qualified immunity
and dismissed the claim. [Id. at 35a-37a].
Specifically, the district court concluded that
“Plaintiff [Fenn] failed to carry his heavy burden that
the law was clearly established.” [Id. at 35a]. The
district court did not address the question “whether

5
there was a constitutional violation,” because Fenn
failed to cite to any cases “that apply the complex First
Amendment analysis to the facts of this case, i.e., that
it was clearly established that issuing a trespass notice
barring Plaintiff for his alleged conduct from a state
agency visitor center would violate Plaintiff’s First
Amendment rights.” [Id. at 35a-36a].
Following the order on the motions to dismiss, no
claims against Hicks remained. Sometime later, the
district court entered an order disposing of all other
claims on summary judgment. [Id. at 38a-51a, 52a].
Fenn appealed from the final judgment of the
district court to the Tenth Circuit, and the Tenth
Circuit affirmed. [Id. at 3a]. Specifically, the Tenth
Circuit concluded that “[t]he individual defendants are
entitled to qualified immunity because no
constitutional violation occurred.” [Id.] With respect
to the retaliation claim under § 1983, the Tenth Circuit
expressed two rationales for its conclusion: (1) Fenn
“has not shown he was engaged in constitutionally
protected activity because the Center is not the type of
public forum in which the Government must allow
picketing and other forms of protest Fenn claims to
have engaged in”; and (2) “where the adverse action
takes the form of an arrest and subsequent
prosecution, the Plaintiff must show an absence of
probable cause,” and “Fenn has not shown a lack of
probable cause here.” [Id. at 7a, 9a]. Of these
rationales, only the first applies in any meaningful way
to the claim against Hicks. There are not allegations
that Hicks was involved in the arrest or prosecution,
and the only allegations against Hicks in the

6
Complaint concern his signing the trespass notice at
the request of the City Police Chief. See [id. at 36a];
[Resp’t Hicks App. 7 at ¶¶ 33-36].
On the public forum issue, the Tenth Circuit
specifically concluded that “[t]he Center is a city-owned
building, leased to various entities [that] is a nonpublic
forum.” [Pet’r’s App. at 8a]. The Tenth Circuit
compared the Center to the publically accessible
walkway of the Denver Performing Arts Center that it
considered in Hawkins v. City & Cnty. of Denver, 170
F.3d 1281, 1287-88 (10th Cir. 1999). The court
reasoned that the mere fact that the public is permitted
to come and go at will does not transform a space into
a traditional public forum. [Pet’r’s App. at 8a]. The
Tenth Circuit was careful in cabining its analysis to
Fenn’s claim that the Center should be considered a
traditional public forum. Accordingly, the Tenth
Circuit did not reach the question of whether the
Center may be a designated public forum or whether
the restrictions at issue in this case would be
unreasonable in a nonpublic forum. [Id. at 8a-9a].
Fenn simply did not make these arguments, and there
was not any development of the record to reach them.
See [id.].
III.

Misstatements within the Petition

Pursuant to Supreme Court Rule 15(2), Hicks alerts
the Court to the following perceived misstatements of
fact or law in the Petition that bear upon the claims
against Hicks:
1. On page one of the Petition, Fenn states that he
was “arrested for trespass because his protest is

7
perceived on the basis of its content as
obnoxious.” Fenn makes similar statements
concerning Respondents’ purported motivations
to retaliate against Fenn for the content of his
speech on pages seven, nine, ten, eleven, and
elsewhere. With respect to the claim against
Hicks, these statements are disputed. The
district court dismissed the retaliation claim
under Federal Rule of Civil Procedure 12(b)(6).
[Pet’r’s App. at 37a]. Accordingly, the district
court did not hear evidence concerning Hicks’s
motivations. Neither the district court’s nor the
Tenth Circuit’s orders consider whether Hicks
was motivated by retaliatory animus. See [id. at
19a-37a, 1a-14a].
Further, Fenn’s own
complaint contains numerous allegations
indicating motivations other than the content of
his speech for Hicks’s signing the trespass
notice: (1) Fenn’s conduct made people concerned
for their safety and the safety of property, and
(2) Fenn was improperly soliciting patrons in
violation of a municipal ordinance requiring a
business license. [Resp’t Hicks App. 3, 4, 5, 6-7
at ¶¶ 12, 16, 23-24, 32-26]. The Complaint
explicitly alleges that Hicks requested the
trespass order based on these “prior incidents as
a preventive measure.” [Id. App. 7 at ¶ 33].
2. On page eight of the Petition, Fenn states that
the district court’s granting qualified immunity
to Hicks conflicts with this Court’s decision in
Nieves v. Bartlett, __ U.S. __, 139 S. Ct. 1715
(2019). It does not for the reasons stated in the
Tenth Circuit opinion [Pet’r’s App. at 10a-11a]

8
and discussed below. Moreover, this Court
issued its opinion in Nieves after the district
court opinion dismissing the § 1983 retaliation
claim against Hicks. [Id. at 19a].
3. On page ten of the Petition, Fenn states that the
district court accepted Hicks’s argument that
signing a trespass order would not chill First
Amendment activity. Fenn characterizes the
argument as follows: “Petitioner was not injured
because he could ‘voice his concerns at other
venues.’”
[Pet. at 8].
This statement
mischaracterizes Hicks’s argument before the
district court, and more importantly, it is
incorrect with respect to the reasoning of the
district court. The district court did not reach
the elements of the First Amendment analysis,
including whether a person of ordinary firmness
would be chilled from speech, because it resolved
the case on other qualified immunity grounds.
[Pet’r’s App. at 35a] (“The Court need not
address whether there was a constitutional
violation.”).
4. Also on page ten of the Petition, Fenn states that
“[t]here is no question that Mr. Hicks’[s] action
(to obtain a trespass order for other reason than
the content of Mr. Fenn’s speech) did chill Mr.
Fenn, a person of above ordinary firmness.”
This passage contains a number of
misstatements.
First, the parenthetical
statement concerning Hicks’s motivation is
disputed for the reasons discussed in paragraph
one above. Second, there is no indication in the

9
record that the issuance of the trespass order,
standing alone, did anything to chill Fenn’s
conduct. To the contrary, the record indicates
that Fenn returned to the Center on no less than
two occasions after Hicks signed the order and
Fenn received it. [Resp’t Hicks App. 7, 8 at
¶¶ 37, 43].
5. Also on page ten of the Petition, Fenn writes
that he “was falsely arrested for trespass, based
solely on a trespass order derived from
representations to Mr. Hicks that Mr. Fenn was
‘disruptive.’ Yet, the only suggested
disruptiveness was the content of Mr. Fenn’s
speech . . . .” This passage contains a number of
misstatements. First, as discussed in paragraph
one above, the pleadings contain numerous
examples of “disruptive” behavior other than
Fenn’s speech. [Resp’t Hicks App. 3, 4, 5, 6-7 at
¶¶ 12, 16, 23-24, 32-26]. Second, the statement
that Fenn was arrested “solely” on the basis of
Hicks’s trespass order is incorrect.
The
Complaint details significant developments after
Hicks signed the order that culminated in the
arrest. [Id. App. 7-9 at ¶¶ 37-47]. Third, the
statement that Fenn was “falsely arrested” is
unclear and potentially a misstatement. There
is nothing in the record to suggest that there
was any materially “false” misrepresentation or
fabrication leading to the arrest.
6. On page eleven of the Petition, Fenn states that
the district court “erred in determining” that
Hicks was not “motivated as a response to Mr.

10
Fenn’s exercise of constitutionally protected
conduct.” As discussed above in paragraphs one
and three, the district court did not reach this
question. [Pet’r’s App. at 35a].
7. On page thirteen of the Petition, Fenn states
that the district court “erred in answering . . .
whether Mr. Fenn, a citizen, had the right to
petition and enjoyed freedom of speech at the
public visitor locations that he selected and
which all other citizens were invited to attend.”
Fenn makes similar claims on page fourteen
concerning the district court’s purported error to
“accept[]” Hicks’s argument that a person may
be “‘excluded’ from a location.” Again, with
respect to the § 1983 claim against Hicks, the
district court did not reach this question.
[Pet’r’s App. at 35a].
8. Also on page thirteen of the Petition, Fenn
argues concerning Hicks’s intent:
Mr. Hicks never denied his intent was
to stop Mr. Fenn from speaking out
against Spaceport America’s use of the
former senior center. Nor did Mr.
Hicks deny that he worked with
Respondents Alirez and Apodaca to
restrain Mr. Fenn from access to the
public visitor center and cease Mr.
Fenn’s speech by issuance of a
trespass order
Because the district court dismissed the claims
against Hicks on a motion to dismiss, Hicks

11
never filed an answer. As such, Hicks never had
the procedural opportunity to deny these
averments. Fenn’s characterization of Hicks’s
motives is, nonetheless, disputed.
9. On page 24 of the Petition, Fenn states that
“whether or not this was a public forum [was]
never at issue before the District Court, because
the parties never disputed that it was.” Fenn is
correct that the district court did not reach the
question, but the parties, including specifically
Hicks, did argue to the district court that the
Center was not a public forum. See Defendant
Daniel Hicks’ Motion to Dismiss, Fenn v. City of
Truth or Consequences, No. 2:18-cv-00634 (dkt.
no. 18), at 8-9.
REASONS TO DENY THE PETITION
I.

The Tenth Circuit Correctly Applied the
Standards Articulated by this Court to
Conclude that the Center Was Not the Type
of Public Forum in which the Government
Must Allow Picketing and Other Forms of
Protest.

As noted, the sole dispositive issue, with respect to
the Tenth Circuit’s opinion affirming dismissal of the
retaliation claim against Hicks, is whether the Center
is a traditional public forum. The Tenth Circuit’s
conclusion that the Center is not a traditional public
forum accords with the guidance of this Court, and
Fenn has not identified any contrary case law from any
coordinate court of appeals or state court of last resort.

12
Accordingly, there is no good reason for the Court to
grant certiorari in this case. Sup. Ct. R. 12.
This Court has long established that persons who
want to propagandize protests or views do not have a
constitutional right to do so whenever and however and
wherever they please. Adderley v. Florida, 385 U.S. 39,
47 (1966). “Nothing in the Constitution requires the
Government freely to grant access to all who wish to
exercise their right to free speech on every type of
government property without regard to the nature of
the property[.]” Cornelius v. NAACP Legal Def. & Educ.
Fund, Inc., 473 U.S. 788, 799-800 (1985). See Perry
Educ. Ass’n, 460 U.S. at 46 (holding that the “First
Amendment does not guarantee access to property
simply because it is owned or controlled by the
government” (internal quotation marks and citation
omitted)). “The Government’s ownership of property
does not automatically open that property to the
public.” United States v. Kokinda, 497 U.S. 720, 725
(1990).
Traditional public fora are places that have
traditionally been open to public assembly and debate.
McCullen v. Coakley, 572 U.S. 464, 467 (2014);
Arkansas Educ. Television Comm’n v. Forbes, 523 U.S.
666, 677 (1998). For instance, streets and parks are
traditionally public forums. See Perry Educ. Ass’n, 460
U.S. at 45 (“streets and parks . . . have immemorially
been held in trust for the use of the public, and, time
out of mind, have been used for purposes of assembly,
communicating thoughts between citizens, and
discussing public questions.” (internal quotation marks
and citation omitted)). Under this analysis, “[p]ublicly

13
owned or operated property does not become a ‘public
forum’; simply because members of the public are
permitted to come and go at will.” United States v.
Grace, 461 U.S. 171, 175 (1983). See, e.g., Kokinda, 497
U.S. at 727 (sidewalk leading from public thoroughfare
to Post Office was not traditional public forum);
Hawkins, 170 F.3d at 1287-88 (publically accessible
walkway of the Denver Performing Arts Center was not
a traditional public forum); Kreimer v. Bureau of Police
for Town of Morristown, 958 F.2d 1242, 1256 (3d Cir.
1992) (public library was not traditional public forum).
If the location at issue “is not a traditional public
forum and has not been designated as a public forum,
it is a nonpublic forum[,]” access to which can be
restricted. Verlo v. Martinez, 820 F.3d 1113, 1129 (10th
Cir. 2016); accord Perry Educ. Ass’n, 460 U.S. at 46.
With respect to nonpublic fora, the state is permitted to
control the property under its control for its proper use.
Perry Educ. Ass’n, 460 U.S. at 46 (quoting U.S. Postal
Serv. v. Greenburgh Civic Ass’n, 453 U.S. 114, 129
(1981)). See Greer v. Spock, 424 U.S. 828, 836 (1976);
Adderley, 385 U.S. at 48; see also NMSA 1978, § 30-141(C) (1995) (prohibiting entry on government property
while knowing that consent to enter has been
withdrawn).
Here, Fenn’s only argument was that the Center
was a traditional public forum. He did not argue before
either the district court [Pet. at 24] or the Tenth Circuit
[Pet’r’s App. at 8a-9a] either that the Center was a
designated public forum or that the restrictions on
speech alleged in this case would be unreasonable in a
nonpublic forum. Accordingly, the only relevant

14
question with respect to the Petition on this issue is
whether the Center was a traditional public forum. See
Cutter v. Wilkinson, 544 U.S. 709, 718, n.7 (2005)
(“[W]e are a court of review, not of first view.”).
On this narrow question, there is no doubt that the
Tenth Circuit correctly applied the Court’s welldeveloped precedent defining the bounds to traditional
public fora. The Center is a City-owned building that
the City leased to various entities, including Spaceport
America, Geronimo Trail Scenic Byway, and Follow the
Sun Tours, for use as a visitor center. See [Pet’r’s App.
at 2a]; [Resp’t Hicks App. 3, 4, 5 at ¶¶ 10-11, 13, 19].
Accepting these facts as pled to be true, there is no
reason to understand the Center (under its current
configuration) to be a traditional public forum for
assembly, communication with others, and the
discussion of public questions. There is nothing in the
record to suggest that the Center, operating as a visitor
center, is analogous to a public thoroughfare, park, or
other space that this Court has recognized as a
traditional public forum. Instead, the case is most
analogous to that in the Tenth Circuit’s prior opinion in
Hawkins; the Center was open to the public “to permit
ingress to and egress from” the various commercial
tenants therein. Cf. 170 F.3d 1287. Notably, Hawkins
accords with this Court’s precedent in Kokinda, 497
U.S. at 725, and numerous other circuits have cited
Hawkins with approval. See, e.g., New England Reg.
Council of Carpenters v. Kinton, 284 F.3d 9, 22 (1st Cir.
2002).

15
Fenn has not cited, whether in the Petition or any
other briefing in this case, any authority that considers
a visitor center to be a traditional public forum, and the
arguments that he makes with respect the character of
the Center misconceive the applicable standard. Fenn
repeatedly emphasizes that the Center was open to “all
other citizens” or was a “public location.” E.g., [Pet. at
13]. This Court has long recognized that this fact,
standing alone, is not dispositive. See Grace, 461 U.S.
at 175. Next, Fenn argues that the Center was
“inclusive of a public library.” [Pet. at 11]. The
presence of a public library annex near the area of the
Center where Fenn was arrested does not transform
the space into an area traditionally open to public
assembly and debate. See Kreimer 958 F.2d at 1256;
accord Doe v. City of Albuquerque, 667 F.3d 1111, 1130
(10th Cir. 2012). Finally, Fenn argues that the Tenth
Circuit improperly engaged in fact finding related to
the Center. [Pet. at 24-27]. The Tenth Circuit opinion
contains no findings of fact; and the facts concerning
the current use of the Center are all contained within
the pleadings. See [Pet’r’s App. at 2a]; [Resp’t Hicks
App. 3, 4, 5 at ¶¶ 10-11, 13, 19]. Fenn confuses
conclusions of law—e.g., whether the Center “was not
a type of space where a person would traditionally
engage in protected speech or conduct” (Pet. at
26)—with findings of fact. See McGlone v. Bell, 681
F.3d 718, 732 (6th Cir. 2012) (where facts are not in
dispute, whether a space qualifies as a traditional
public forum is “purely a question of law”).
That the Center is not a traditional public forum
means that Fenn (and any other member of the public)
can be excluded for conduct that is inconsistent with

16
“the nature of the property[.]” Cornelius, 473 U.S. at
800. This right to exclude persons for conduct that is
inconsistent with the nature of the property in no way
limits Fenn’s right to protest, pamphlet, and engage in
one-on-one conversations with interested persons in a
number of traditional public fora—including
specifically at public board meetings for Spaceport
America, nearby parks, or even on the street directly
outside the Center.
II.

The District Court Correctly Applied the
Standards Articulated by this Court to
Conclude that No Clearly Established First
Amendment Precedent Put Respondent
Hicks on Notice that Signing a Trespass
Notice May Violate Fenn’s Constitutional
Rights.

The next issue concerns the separate and wholly
independent reason that the district court dismissed
the claims against Hicks. As noted above, the district
court did not reach the question of whether Hicks’s
signing the trespass order was a violation of Fenn’s
First Amendment rights; instead, the district court
ruled that Hicks was entitled to qualified immunity
because Fenn failed to carry his burden to demonstrate
clearly established law. See [Pet’r’s App. at 68a-7a].
Fenn does not directly address this issue in the
Petition. It remains important, however, because even
if the Court is inclined to grant a writ of certiorari to
review the First Amendment issues, the question is
moot with respect to Hicks unless Fenn demonstrates
a basis for removing qualified immunity.

17
“The doctrine of qualified immunity protects
government officials ‘from liability for civil damages
insofar as their conduct does not violate clearly
established statutory or constitutional rights of which
a reasonable person would have known.’” Pearson v.
Callahan, 555 U.S. 223, 231 (2009) (quoting Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982)). While there need
not be case law “directly on point for a right to be
clearly established, existing precedent must have
placed the statutory or constitutional question beyond
debate.” White v. Pauly, __ U.S. __, 137 S. Ct. 548, 551
(2017) (emphasis added) (internal quotation marks and
citation omitted); see Swanson v. Town of Mountain
View, 577 F.3d 1196, 1200 (10th Cir. 2009) (holding
that “for a right to be clearly established [the Tenth
Circuit Court of Appeals] looks for Supreme Court or
Tenth Circuit precedent on point, or clearly established
weight of authority from other courts that found the
law to be as the plaintiff maintains” (internal quotation
marks and citations omitted)).
“[Q]ualified immunity protects ‘all but the plainly
incompetent or those who knowingly violate the law.’”
Mullenix v. Luna, 577 U.S. 7, 11 (2015) (quoting Malley
v. Briggs, 475 U.S. 335, 341 (1986)). A motion to
dismiss based on qualified immunity imposes the
burden on the plaintiff to show “both that [1] a
constitutional violation occurred and [2] that the
constitutional right was clearly established at the time
of the alleged violation.” Green v. Post, 574 F.3d 1294,
1300 (10th Cir. 2009) (quotations omitted). A court
evaluating qualified immunity is free to “exercise [its]
sound discretion in deciding which of the two prongs of
the qualified immunity analysis should be addressed

18
first in light of the circumstances in the particular case
at hand.” Pearson, 555 U.S. at 236.
“A Government official’s conduct violates clearly
established law when, at the time of the challenged
conduct, the contours of a right are sufficiently clear
that every reasonable official would have understood
that what he is doing violates that right.” Ashcroft v.
al-Kidd, 563 U.S. 731, 741 (2011) (alterations, internal
quotation marks, and citation omitted)). A clearly
established right should not be defined “at a high level
of generality,” but instead “must be particularized to
the facts of the case.” T.D. v. Patton, 868 F.3d 1209,
1220 (10th Cir. 2017) (internal quotation marks and
citations omitted). The inquiry “‘must be undertaken
in light of the specific context of the case, not as a
broad general proposition.’” Brosseau v. Haugen, 543
U.S. 194, 198 (2004) (per curiam) (quoting Saucier v.
Katz, 533 U.S. 194, 201 (2001)).
Nearly all of the Petition (with respect to Hicks)
advances an argument that Hicks violated Fenn’s First
Amendment rights by preventing Fenn from protesting
on public property. See [Pet. at 9-15]. Fenn does not
identify the existence of any case law clearly
establishing (or even suggesting) that a state official
violates a person’s First Amendment rights by signing
a trespass order based on the person’s prior nonprotected conduct. The failure to cite to any case law
indicating that Hicks’s specific conduct violated a
clearly established constitutional right is fatal to his
claim, and the district court properly ruled that Hicks
was entitled to qualified immunity.

19
Rather than cite to any case considering facts
analogous to these, Fenn, in the words of the district
court, “cites to cases which are not factually on point or
are cited for general statements of law which would not
make a reasonable official aware that he or she was
violating Plaintiff’s First Amendment rights.” [Pet’r’s
App. at 70a]. For instance, Fenn relies on Nieves v.
Bartlett, __ U.S. __, 139 S. Ct. 1715 (2019). See [Pet. at
15]. In Nieves, the Supreme Court analyzed the
plaintiff’s § 1983 retaliatory arrest claim. Nieves, 139
S. Ct. at 1721. The claim arose from the plaintiff’s
arrest for disorderly conduct and resisting arrest by a
police officer who was patrolling an outdoor winter
sports festival. Id. at 1720-21. The incident giving rise
to the action began while a police officer was speaking
to some minors who were suspected of drinking alcohol
while at the festival. Id. The plaintiff stepped between
the police officer and the minors and was verbally
abusive toward the police officer. Id. The case does not
involve any alleged protest of government action. The
case does not involve the conduct of a non-police state
official. The case does not involve the signing of a
trespass order related to public property. Nieves is,
therefore, not analogous to the instant case and would
not place Hicks on notice that he could be violating
Fenn’s First Amendment rights by signing a trespass
order under the circumstances present here. See
Ashcroft, 563 U.S. at 741, 743 (holding that qualified
immunity is appropriate unless “the contours of a right
are sufficiently clear that every reasonable official
would have understood that what he is doing violates
that right.” (emphasis added) (alterations, internal
quotation marks, and citation omitted)).

20
The specific burden on a plaintiff to overcome an
assertion of qualified immunity by a government
official is clear. The plaintiff must show, by citation to
a “Supreme Court or Tenth Circuit decision on point, or
the clearly established weight of authority from other
courts[,]” that the law is “as the plaintiff maintains.”
Klen v. City of Loveland, 661 F.3d 498, 511 (10th Cir.
2011). As such, Fenn bears the burden to cite case law
holding that a government official violates a person’s
First Amendment rights by signing a trespass order
based on the non-protected conduct Fenn engaged in.
Fenn has not cited any such cases. As such, the district
court properly ruled that Hicks was entitled to
qualified immunity, and this Court should affirm that
ruling.
CONCLUSION
The Tenth Circuit properly affirmed the dismissal
of Petitioner Fenn’s claims against Hicks, concluding
that the Center was not a traditional public forum.
Hicks’s signing a trespass order did not infringe on
Fenn’s constitutional rights, and even if it did, the
district court appropriately ruled that Fenn failed to
carry his burden to overcome the Hicks’s defense of
qualified immunity. This Court should deny Fenn’s
Petition and affirm the ruling of the Tenth Circuit.

21
Respectfully submitted,
STEPHEN S. HAMILTON
Counsel of Record
KALEB W. BROOKS
MONTGOMERY & ANDREWS, P.A.
P.O. Box 2307
Santa Fe, New Mexico 87504-2307
(505) 982-3873
shamilton@montand.com
Counsel for Respondent
Daniel Hicks
Dated: August 13, 2021

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Complaint Due to Deprivation of Civil Rights
and Malicious Abuse of Process in the United
States District Court for the District of New
Mexico (July 5, 2018) . . . . . . . . . . . . . . . . . . App. 1

App. 1

APPENDIX
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
Civ No.
[Filed July 5, 2018]
____________________________________________
RON FENN,
)
)
Plaintiff,
)
)
v.
)
)
CITY OF TRUTH OR CONSEQUENCES,
)
MICHAEL APODACA, Truth or Consequences )
Police Captain Individually Acting Under the
)
Color of Law, POLICE CHIEF LEE
)
ALIREZ, Individually Acting Under the Color )
of Law, and DANIEL HICKS, Director of
)
Spaceport American, Individually Acting Under )
the Color of Law,
)
)
Defendants.
)
____________________________________________ )
COMPLAINT DUE TO DEPRIVATION OF
CIVIL RIGHTS AND MALICIOUS ABUSE
OF PROCESS
Plaintiff brings this action to recover damages for
violations of his civil rights pursuant to 42 U.S.C. 1983

App. 2
and for retaliation and harassment under the color of
law, including malicious prosecution and defamation by
Defendants, with the intent to bring harm.
INTRODUCTION
This case arises from the intentional malicious
abuse of process by Defendants against Plaintiff Ron
Fenn.
PARTIES
1.
Plaintiff Ron Fenn is a resident of Sierra
County, New Mexico.
2.
Defendant City of Truth or Consequences is
located in Sierra County, New Mexico.
3.
Defendant Michael Apodaca is a Police
Captain for the City of Truth or Consequences and is
sued in his individual capacity acting under the color of
law.
4.
Defendant Lee Alirez is the Chief of Police for
the City of Truth or Consequences and is sued in his
individual capacity acting under the color of law.
5.
Defendant Daniel Hicks is the Director of
Spaceport America and is sued in his individual
capacity acting under the color of law.
JURISDICTION AND VENUE
6.

This action arises under 42 U.S.C. § 1983.

7.
This Court has both subject matter jurisdiction
over this action and personal jurisdiction over the
Parties pursuant to 28 U.S.C. §§ 1331 and 1343.

App. 3
8.
The Court has authority to grant the
requested relief pursuant to 28 U.S.C. § 1343(a)(1) and
(2) and to redress the deprivation under 28 U.S.C.
§ 1343(a)(3). This Court also has authority to grant
relief pursuant to the Declaratory Judgment Act, 28
U.S.C. §§ 2201 and 2202.
9.
Venue lies in this district pursuant to 28
U.S.C. § 1391.
FACTUAL BACKGROUND
10.
Plaintiff has been very outspoken regarding
his disagreement with the city of Truth or
Consequences regarding the lease of a city building to
public entities. He has frequently attended meetings
and publicly protested in traditional forums against the
use of Truth or Consequences funds for the benefit of
Spaceport America.
11.
On June 26, 2015, Larena M. Miller, an
employee of the Geronimo Trails Scenic By-Way,
housed at 301 S. Foch St. in Truth or Consequences,
requested that Plaintiff Ron Fenn “be trespassed” from
the location at 301 S. Foch St. (See Exhibit 1 – Truth or
Consequences Police Department Crime Report for
Case Number: 2017-0602, dated June 18, 2017).
12.
Ms. Miller also stated that Mr. Fenn had
been offensive to her, and that she felt unsafe around
Mr. Fenn because of his opposition of the current use of
the building. Ex 1 and 2.
13.
On that same date, Rosemary Bleth, the
Chief Executive Officer for Follow the Sun Tours,
Spaceport America Visitor Center, located 301 S. Foch

App. 4
St., Truth or Consequences, New Mexico, contacted the
Truth or Consequences Police Department to report
improper soliciting. (See Exhibit 2 – Truth or
Consequences Police Department Crime Report for
Case Number 2015-0588, dated June 26, 2015).
14.
Ms. Bleth identified Plaintiff to the police
officer, stating that he had been demonstrating against
the opening of the Spaceport Visitors Center, indicating
that she was not actually there, but that her manager,
Steven Bleth, had reported this to her. Ex. 2.
15.
Mr. Bleth told the officers that he had
observed Mr. Fenn walking around the inside of the
center engaged in conversation with an unidentified
woman. They approached the counter, requesting a pen
and paper, which he used to jot down her email
address. Ex 2.
16.
Mr. Bleth alleged that Mr. Fenn then handed
a business card to the female which said, “Spaceport
Tour Video Memory Services”, and that Mr. Fenn
informed her that for a $10.00 donation he would send
her a collection of videos. Ex 2.
17.
Mr. Bleth informed the officers that Mr. Fenn
had been a very vocal opponent to the opening of the
Spaceport Visitor Center, and that Mr. Belth had been
instructed by the Chief Executive Officer to notify her
immediately of any visit by Mr. Fenn. Ex 2.
18.
Rosemary Bleth arrived at the location at
approximately 10:00 and notified the officer the she
was interested in a criminal trespass order against Mr.
Fenn to prevent him from entering the location. Ex 2.

App. 5
19.
A trespass authorization was issued at the
request of the Space Port America Visitors Center
Representative Rosemary Bleth restricting Ron Fenn
from the property located at 301 S. Foch. Ex 1.
20.
At approximately 11:00 am of the same day,
Captain Apodaca and Chief Alirez of the Truth or
Consequences Police Department attempted to serve
the trespass authorization forms on Ron Fenn at his
residence. Although Mr. Fenn took receipt of the forms,
he refused to sign them. Ex 1. Ex 2.
21.
Chief Alirez asked Mr. Fenn for a copy of the
business cards he had been handing out. Mr. Fenn
provided a copy of his cards, which on the front held
the statement “Help save our Lee Belle Johnson Senior
Recreation Center…” and contained Mr. Fenn’s
telephone number. Ex 2.
22.
Chief Alirez question Mr. Fenn at that that
time as to his business status, and if he currently
possessed a City of Truth or Consequences business
license.
23.
Chief Alirez then met with the Clerk for the
City of Truth or Consequences, had a records check
conducted, and verified that Mr. Fenn did not posses a
business license within the City of Truth or
Consequences.
24.
Mr. Fenn was prosecuted in the City of Truth
or Consequences Municipal court for Conducting
business without a license and was subsequently
convicted on September 9, 2015. Ex 1.

App. 6
25.
On October 10, 2016, Linda DeMarino
contacted the Police Department and reported the
Plaintiff Fenn had again entered the location at 301 S.
Foch and was making “obnoxious comments”. Captain
Apodaca was dispatched to the location. Ex 1, Ex 6.
26.
Ms. DeMarino informed the officer that Mr.
Fenn had been “carrying on” about dismay of the
building no long being in use as a senior center. Ms.
DeMarino filmed Mr. Fenn’s behavior with her phone,
at which time Mr. Fenn began filming her as well. Ex
6.
27.
Ms. DeMarino was asked to preserve the
video footage in the even of criminal trespass charges.
28.
On May 5, 2017, Captain Apodaca was again
detailed to 301 S. Foch in reference to Plaintiff Fenn
being on the property in violation of trespass orders. Ex
1.
29.
The reporting party was John Muenster, a
volunteer of Geronimo Trail Scenic Byway Center. Ex
1.
30.
Mr. Fenn was at the location setting up
posters on a counter inside the center.
31.
Captain Apodaca informed Mr. Fenn that he
“could put up his propaganda and stay… but not to
harass any visitors”. (Exhibit 5 – Incident Narrative of
Captain Apodaca)
32.
Captain Apodaca took Mr. Muenster’s
statement, including his concern about expensive items
kept in the center being damages or stolen. At that

App. 7
time, Captain Apodaca told Mr. Muenster that he and
the Chief of Police would attempt to update the
trespass order against Mr. Fenn with either the
current tenant or the person in charge of the Spaceport
America Visitor’s Center. Spaceport America is a
governmental subdivision of the State of New Mexico.
Ex 5.
33.
According to Chief Alariz’, on May 11, 2017,
Daniel Hicks, CEO of Space Port America requested a
trespass order on Plaintiff Fenn from Chief Alirez
based on prior incidents as a preventive measure. Ex 1.
34.
There has been no staff in the Spaceport
America Visitor Center since their MOU was signed in
March of 2017.
35.
Chief Alirez drove 75 miles to the offices of
Spaceport America in Las Cruces for hMr. Hicks’
signature the day after the May 10, 2017 police report
of Captain Apodaca
36.
Chief Alirez met with Plaintiff Fenn on May
12, 2017 to serve the new trespass order from Space
Port America. Plaintiff again refused to sign but took
receipt of the form. Ex 1.
37.
June 4, 2017, Larena M. Miller again
contacted the Truth or Consequences police
department to report Plaintiff Fenn inside the premises
at 301 S. Foch. Ex 1.
38.
Sergeant E. Baker responded and located Mr.
Fenn inside the common use are of the building. There
is a satellite city library also housed at the location.

App. 8
Plaintiff was in the area of the building housing the
library. Ex 1.
39.
Sergeant Baker told Plaintiff to leave, and he
refused as he was in the public section of the building,
and not visiting Space Port America, nor Geronimo
Trail Scenic Byway Center. Ex 1.
40.
Chief Alirez also came to the scene to speak
with Plaintiff Fenn and told him to leave. Plaintiff
again refused and Chief Alirez left the area. Ex 1.
41.
Chief Alirez then met with Plaintiff Fenn
June 13, 2017 in the police chief’s office. He offered to
hold the newest citation for trespass violation in
abeyance as long as Plaintiff Fenn had no further
violations of the same nature at the location in
question. Ex 1.
42.
Plaintiff refused again, as he has a right to
access the public locations in Truth or Consequences.
43.
On June 18, 2017, Officer Ontiveros was
dispatched to the 301 S. Foch location in reference to a
call the Plaintiff Fenn was again visiting the premises.
44.
Upon arrival, Officer Ontiveros located
Plaintiff “within the common area of the areas he had
previously been trespassed from” Ex 1, Ex 7.
45.
Mr. Fenn informed Officer Ontiveros that he
was not trespassing but was protesting the building
having been taken away from the citizens of Truth or
Consequences and that he was waiting for people to
come in and sign his petition. Ex 7.

App. 9
46.
A direct verbal command to leave the
building was issued by Officer Ontiveros and Plaintiff
refused to leave.
47.
Chief Alirez was called, and when he arrived
on scene again directed Plaintiff to leave, again
Plaintiff refused. Ex 1, Ex 7.
48.
Chief Alirez then arrested Plaintiff Fenn and
he was transported to the Sierra County Detention
facility.
49.
On June 19, 2017 a Criminal Complaint was
filed against Mr. Fenn in the Sierra Magistrate Court,
case no. M-51-MR-2017-00256, charging him with; i)
Resisting, Evading or Obstructing an Officer pursuant
to NMSA 30-22-1(D), and ii) Criminal Trespass
pursuant to NMSA 30-14-1(C). (Exhibit 3, Docket for
magistrate case 256).
50.
On June 26, 2018, a criminal complaint was
filed against Mr. Fenn in the Sierra Magistrate Court,
case no. M-51-MR-2017-00293, charging him with; i) 2
counts of Resisting, Evading or Obstructing an Officer
pursuant to NMSA 30-22-1(D), and ii) Criminal
Trespass pursuant to NMSA 30-14-1(C). (Exhibit 4,
Docket for magistrate case 293).
51.

Mr. Fenn pled not guilty to all charges.

52.
An arraignment was held in both cases on
June 26, 2017 and Mr. Fenn was released on personal
recognizance, placed on probation and was ordered not
to be in or near the Lee Bell Johnson Center located at
301 S. Foch.

App. 10
53.
Mr. Fenn filed a Motion to Dismiss for
Failure to Establish Essential Elements of Offense in
M-51-MR-2017-00293 on August 8, 2017, a Response to
the Motion was filed August 22, 2017 and a Hearing
held on the Motion on August 25, 2017.
54.

The Motion to Dismiss was denied.

55.
September 12, 2017, current counsel for Mr.
Fenn entered its appearance.
56.
Mr. Fenn sent a Demand Notice on
September 14, 2017 to former city manager Jaime
Aguilera, on behalf of the taxpayers of Truth or
Consequences, requesting repayment of funds made on
Aguilera’s behalf into the Rotary Club from the public
coffers. The “Demand Letter” requested that the
repayment be made into the General Fund for Truth or
Consequences. Mr. Fenn signed the letter as “Co-CEO,
City of Truth or Consequences”.
57.
On September 14, 2017, Coppler Law Firm
sent a cease and desist letter to Mr. Fenn insisting that
he stop misrepresenting himself as a purported officer
of the City, and that if Mr. Fenn did not do so he would
be subject to legal action from the City. Exhibit 8 –
Letter from Coppler Law Firm
58.
Both of the magistrate cases filed against Mr.
Fenn were Dismissed Without Prejudice Nolle Proseque
on October 11, 2017.

App. 11
FIRST CAUSE OF ACTION:
42 U.S.C. 1983 - VIOLATION OF FIRST
AMENDMENT
59.
Plaintiff re-alleges each and every one of the
above paragraphs as if fully set forth herein.
60.
The First Amendment of the United States
Constitution protects an individual’s freedom of
expression, freedom of speech and an individual’s right
to petition his government for redress.
61.
Plaintiff has a right to be free from
retaliation for exercising his First Amendment rights.
62.
Defendants each and every one of them to
actions took actions to explicitly prohibit Plaintiff from
engaging in protected speech on the basis of the content
of his speech.
63.
Defendants, all of them, by the action of
trespassing, requesting removal, removal, arrest or
prohibiting Plaintiff’s lawful and peaceful protest
deprived Plaintiff of his First Amendment rights on the
basis of the content of his speech in violation of the
United States Constitution.
64.
Plaintiff Fenn has been subjected, as a result
of the recited acts, to deprivations of his rights under
color of law and per the customs, policies and usages of
the County, of rights, privileges and immunities
secured to him by the Constitution and laws of the
United States and in particular his right to freedom of
speech and to petition his government as protected by
the First Amendment to the United States
Constitution.

App. 12
65.
The Defendants have engaged in, created or
condoned a policy of violating Plaintiff’s First
Amendment rights and retaliating against Plaintiff for
engaging in his right to petitioner his government.
Defendants have engaged in such conduct in clear
violation of law.
66.
As a direct and proximate result of the
retaliatory and vindictive acts by Defendants, Plaintiff
has suffered injuries consisting of deprivation of a
constitutional right for which Defendants are liable.
67.
Defendants are also subject to punitive
damages for their conduct.
SECOND CAUSE OF ACTION:
MALICIOUS PROSECUTION, ABUSE OF
PROCESS BY DEFENDANTS APODACA AND
ALARIZ
68.
Plaintiff re-alleges each and every one of the
above paragraphs as if fully set forth herein.
69.
Defendants Alariz and Apodaca with the
assistance of officers under their control, arrested,
charged and prosecuted Plaintiff for unjustified charges
that were not supported in law or fact for the express
purpose of harming and harassing Plaintiff.
70.
Defendants
violated
Plaintiff’s
constitutionally protected rights in an effort to chill his
activities and retaliate against him for disclosing their
malfeasance. Their actions of arrest and prosecution
were specifically designed to prevent and deter Plaintiff
from the lawful and peaceful exercise of his rights, as
such actions would deter any person of ordinary

App. 13
firmness from lawful exercise of speech and protest
under the threat of criminal prosecution.
71.
As a direct and proximate result of the
retaliatory and malicious prosecution and abuse of
process, Plaintiff suffered injuries for which
Defendants are responsible.
72.
The Defendants are also subject to punitive
damages for their conduct.
THIRD CAUSE OF ACTION:
42 U.S.C § 1983 – MUNICIPAL & SUPERVISORY
LIABILITY FOR VIOLATIONS OF FEDERAL
CONSTITUTIONAL RIGHTS (By Plaintiff
Against Defendants City of Truth or
Consequences and Chief Lee Alirez for Each of
the Aforementioned Federal Violations)
73.
Plaintiff incorporates all of the preceding
paragraphs as if fully stated herein.
74.
Defendants City of Truth or Consequences
and Chief of Police Lee Alirez are authorized
policymakers and responsible for creating, and
adhering to, policies, procedures, and customs for the
City of Truth or Consequences. Defendants City of
Truth or Consequences and Chief of Police Lee Alirez
are responsible for the hiring, supervision, and training
of the City’s employees, contractors and agents.
75.
Defendants City of Truth or Consequences
and Chief of Police Lee Alirez created a climate that led
other Defendants consisting of officers of the city, to
believe that they could act with impunity, violate civil

App. 14
rights, and otherwise conduct himself in the manner
described herein.
76.
Defendants City of Truth or Consequences
and Chief of Police Lee Alirez failed to properly train,
supervise, and admonish Defendants.
77.
There is a causal connection between Truth
or Consequences’ failure to train, supervise, and
admonish their employees including Chief Lee Alirez
leading to the violation of Plaintiff’s constitutional
rights.
78.
Defendant Truth or Consequences failure to
properly train, supervise, and admonish their
employees amounts to deliberate indifference.
79.
The policies, customs, decisions and practices
of Truth or Consequence that promoted retaliation
against an outspoken citizen who was critical of the
City’s actions along with their failure to train,
supervise, and admonish, were willful, wanton,
obdurate and in gross and reckless disregard of
Plaintiff’s rights.
80.
Defendants acts and omissions caused
Plaintiff to suffer severe emotional distress and
attorneys’ fees and costs.
PRAYER FOR RELIEF
WHEREFORE, Plaintiff prays for:
A.

A trial on the merits before a jury;

B.

A declaration that the actions of identified
Defendants described in this Complaint

App. 15
violated Plaintiffs’ Constitutional rights
under the First Amendment of the United
States Constitution and Article II, Section 17
of the New Mexico Constitution;
C.

General and specific compensatory damages
according to proof;

D.

Punitive damages in such amount as will
sufficiently punish defendants for their
willful and malicious conduct and as will
serve as an example to prevent a repetition of
such conduct in the future;

E.

Interest on such damages awarded at the
legal rate from the date of judgment until
paid;

F.

An order granting Plaintiffs’ costs and
attorney fees; and

G.

Any and all other relief that may be
appropriate as deemed by this Court.
JURY DEMAND

Plaintiff also requests a jury trial.

App. 16
WESTERN AGRICULTURE, RESOURCE
AND BUSINESS ADVOCATES, LLP
/s/ A. Blair Dunn
A. Blair Dunn, Esq.
Dori E. Richards, Esq.
400 Gold Ave SW, Suite 1000
Albuquerque, NM 87102
(505) 750-3060
abdunn@ablairdunn-esq.com
dorierichards@gmail.com
[***Civil Cover Sheet Omitted for this Appendix***]

App. 17
EXHIBIT 1
Case Number: 2017-0602
Truth or Consequences Police Department
NM02701
Crime Report
30-14-1 NMSA1978 Criminal trespass
30-22-1 NMSA1978 Resisting, evading or
obstructing an Officer
Location: 301 S. Foch St. Truth or Consequences, New
Mexico 87901
Date: 06/18/20117 Time: 0933
Suspect:
Fenn, Ronald W.
(575) 894-1543
M/W/Bro/Bro/6’0”/168/D.O.B. 02/23/1944
OLN# NM 120413821
316 N. Foch St. Truth or Consequences, New Mexico
87901
Witness(s):
W/1
Miller, Larena M.
(575) 267-3455
F/W/Bro/Bro/5’5”/220/ D.O.B. 07/30/1996
OLN# 000170471
301 S. Foch St. Truth or Consequences, New Mexico
87901

App. 18
W/2 Hickes, Daniel
CEO Spaceport America
901 E. University Ave. Suite #9651
Las Cruces, New Mexico 88001

(575) 267-8599

W/3 Sergeant E. Baker
(575) 594-1204
Clerk, City of Truth and Consequences
505 Sims St. Truth or Conxequences, New Mexico
87901
W4
Captain Apaodaca M. Apodaca #9027 (575) 894-1204
507 McAdoo St. Truth or Consequences, New Mexico
87901
Evidence:
Item #1 Video Recording of contact with Ronal Fenn
Item #2 Trespass Authorization (copy) signed by
Daniel Hicks
Item #3 Trespass Authorization (copy) signed by W/4
Larena Miller
Details:
On June 26, 2015 W/1 Lorena miller requested that
Ronal Fehn be trespassed from 301 S. Foch. W/1 Miller
signed the trespass authorization as an authorized
representative of Geronimo Trails Scenic By-way
housed at 301 S. Foch St. Onn this same date a
trespass authorization was also issued at the request
of the Space port America Visitors Center
Representative Rosemary Bleth restricting and or
prohibiting Ronald Fenn from going onto the property

App. 19
located at 301 S. Foch Spaceport America Visitors
center Both Trespass authorizations were based on
conduct and City ordinance violations committed by
Ronald Fenn. On This same date Captain Apodaca and
I served the two trespass authorization forms on
Ronald Fenn at his residence, and he refused to sign
them but took receipt of the forms. This was
documented under Case #205-0588 Mr. Fenn was
prosecuted in The City of Truth or Consequences
Municipal court for 7-32 Conducting business without
a license 7-32 Soliciting Article I, section 7-1 and was
subsequently convicted on September 09th, 2015
On October 10, 2016 at approximately 1055s
Captain Apodaca was detailed to 301. S. Foch in
reference to Ronald Fenn entering the location in
violation of an existing trespass order and making
“obnoxious” Comments. The reporting party was Linda
DeMarino and Captain Apodaca documented the
incident under case # 61-0961 see attached copy.
On May 5th, 2016 Captain Apodaca was detailed to
301 S. Foch in reference to Ronald Fenn being on
property in violation of a current trespass order and
being unruly. The reporting Party was John Muenster
a Volunteer of Geronimo Trail Scenic Byway center.
Mr. Fenn was located on property and was advised
regarding the trespass order and he argued the prior
occupant of the Space Port Visitors Center, Rosemary
Bleth of Follow the Sun Tours was no longer an
occupant making the trespass order null and void
Captain Apodaca advised Ronald Fenn the trespass
order issued on behalf of the Geronimo Trails Scenic
Byways was still valid and ordered him to leave

App. 20
immediately and he complied and left the location This
incident was documented under case # 17-0444 (see
attached copy)
On May 11th, 2017 Captain Apodaca and I met with
Daniel Hicks, C.E.O. of Space port America who had
leased the building located at 301 S. Foch (see attached
lease agreement) and he requested Mr. Fenn be
trespassed from the location based on prior incidents
which proved to be disruptive, and as a preventative
measure to avoid further disruption by Mr. Fenn. Mr.
Hicks on behalf of Spaceport America signed the
trespass authorization form.
On May, 12th, 2017 I met with Mr. Fenn in my office
in the police Department and I served him with this
trespass order which he again refused to sign but took
receipt of the form. I advised Mr. Fenn of the
consequences if he continued to disobey this, and he
stated “I am the Co-CEO of the City” and gave me a
business card (see attached). I advised Mr. Fenn
regardless of his own internal justifications he would
be held accountable.
On Sunday June 4th 1017 at approximately 1333
hours W/1 Miller contacted the Truth or Consequences
police department to report Ronald Fenn was inside the
building (Spaceport Visitors Center where had been
previously trespassed from. Sergeant E. Baker
responded and located Mr. Fenn inside the common use
area of the building located directly adjacent to the
Geronimo Tails Scenic Byway and the Space Port
Visitors Center, and Directed him 3 three times to
leave the premises, however he refused to comply and
verbally stated “NO” and related he was in the library

App. 21
section. It should be noted there is a satellite city
library also housed at this ·address, but it was closed
and not open as it was a Sunday and was posted on the
door (See attached Photo). Sergeant Baker issued Mr.
Fenn a citation for the trespass violation Citation
#13180 (See Attached copy) and he refused to sign the
Citation. I arrived on scene at aproximately1415 hours,
and I contacted Mr. Fenn who was seated in the
common area as described, and I asked him if he
refused to sign the citation and he related he was
refusing to leave or sign the citation. I advised him I
had strep throat and was now here dealing with this
especially after having a long conversation on May 12th
advising him not to violate the trespass order, and He
asked me “Are you contagious, I don’t want to get sick”
and I ultimately left the location..
On Thursday June 13th 2017, I met with Ronal Fenn
at my request in my office at the Police Station. I
discussed his conduct on Sunday June 4th and I offered
the hold those charges in abeyance as long as he had no
further violations of this nature at this location. Mr.
Fenn stated I am going to remain “Civilly Disobedient
and you will just have to do your job and arrest me.”
This case and incident was documented under
Case# 2017-0754 (see attached Copy
On June 18th, 2017 at approximately 0933 Officer
Ontiveros was detailed to 301 S. Foch in reference to
Mr. Fenn being at this location in violation of a
trespass order. Upon arrival Officer Ontiveros located
Mr. Fenn inside the building within the common area
of the areas he had previously been trespassed from.
Officer Ontiveros gave Mr. Fenn a direct verbal

App. 22
command to leave the building and he refused to
comply. I arrived on scene and also directed Mr. Fenn
to leave and he also refused to comply. Based on the
fact Mr. Fenn refused to comply with the direct orders
given by Officer Ontiveros and I coupled with his
awareness of the trespass issues I laced Mr. Fenn
under arrested for the above listed charges, Officer
Ontiveros transported and booked into the Sierra
County Detention facility without incident.
I obtained the Lease agreements for Space Port
America and the Geronimo Trails Scenic Byway and
they are attached to this report.

App. 23
EXHIBIT 2
Case Number: 2015-0588
Truth or Consequences Police Department
NM02701
Crime Report
City of Truth or Consequences Municipal Code
Violation(s) Conducting a Business Without a
License, Article I, Section 7-32
Soliciting Article I, Section 7-1
Location: 301 S. Foch St. Truth or Consequences, New
Mexico 87901
Date: 06/26/2015 Time: 0915
W/5
Bruch, Christina
(575) 894-6673
Clerk, City of Truth or Consequences,
New Mexico 87901
W/6
Sergeant M. Apodaca #9027
(575) 894-1204
507 McAdoo St. Truth or Consequences,
New Mexico 87901
W/7
Captain J. Morgan #9077
(575) 894-1204
507 McAdoo St. Truth or Consequences,
New Mexico 87901
Evidence:
Item #1 One Business card provided by S/Ronald
Fenn during investigation

App. 24
Item #2 Trespass Authorization (copy) signed by W/2
Rosemary Bleth
Item #3 Trespass Authorization (copy) signed by W/4
Larena Miller
Item #4 Seven color digital photograph of a copyright
infringement sign and S/Fenn’ Business Card
Details:
On Friday June 26, 2015 at approximately 0915 hours
I was contacted by W/2 Rosemary Bleth who identified
herself as the Chief Executive Officer for Follow the
Sun Tours, Spaceport America Visitor Center located
at 301 S. Foch St. Truth or Consequences, New Mexico
87901. W/2 related she wanted to report a subject
soliciting donations in return for “Spaceport Tour
Video’s” in her business.
W/2 related the subject was identified to her as
S/Fenn who she is familiar with as a local citizen who
has been demonstrating against the opening of the
Spaceport Visitors Center. W/2 related she was not at
the location when this occurred but her manager W/1
Steven Bleth called and reported this to her, just prior
to calling me.
On this same date at approximately 0930 hours,
Captain Morgan, Sergeant Apodaca and I arrived at
the Spaceport Visitors Center where I contacted W /1
Steven Bleth the manager of the Spaceport Visitor
Center, who related the following. W/1 related on
today’s date at approximately 0900 hours he was
working behind the retail counter located on the west
side of the visitor center. W/1 related he observed an

App. 25
elderly male subject who he recognized and identified
as S/Fenn inside of the business. W/1 related an
unknown elderly female subject was walking around
the inside of the center in the retail area when he
observed S/Fenn approach her and engage in
conversation. W/1 related approximately 5 minutes
passed when the female subject accompanied by S/Fenn
approached the counter and she asked him for a pen
and paper. W/1 related he gave the woman a pen and
paper, and in his presence S/Fenn asked for the female
subjects email address then presented her with a
business card. W/1 related he observed the business
card and it stated “Spaceport Tour Video Memory
Services.” W/1 related he observed S/Fenn inform the
female subject that for a $10.00 donation he would send
her his complete collection of “Spaceport America Tour
Videos.” W/1 related he did not intervene as he was
instructed by his direct report C.E.O. W/2 Rosemary
Bleth. W/1 related S/Fenn has been a very vocal
opponent to the opening of the Spaceport Visitor
Center, and he had been instructed by the Chief
Executive Officer (W/2) in the event there was any
issue regarding Mr. Fenn to notify her immediately.
W/1 related at no time did he give S/Fenn permission
to solicit donations inside the business.
I observed affixed to the south wall adjacent to the
retail counter where W/1 related the incident took
place, was a large black sign with 1.5” white letters
which stated “Copying or reproducing Spaceport
America developed media content is a copyright
infringement and prohibited under law.” I took
measurement of the sign and found it to be 17’ from the
retail counter area and measured 16” in height and 18”

App. 26
in width and approximately 6’5”. from the floor. I
observed the sign was clearly visible from within the
center. I took a total (5) digital color photographs
depicting the location of the sign in proximity to the
information/ sales counter, including a close up picture
of the actual sign. W/1 was unsure when the sign had
been affixed to the wall, but related he believed it was
there prior to the centers grand opening on June 24,
2015.
On this same date at approximately 1000 hours W/2
Rosemary Bleth arrived on-scene and I contacted her.
W/2 again identified herself as the Chief Executive
Officer for the business and related her concern was
not only the solicitation inside her business and
copyright infringements, but a contact her husband &
business partner W/3 Mark Bleth had with S/Fenn
earlier on this same date. W/2 related W/3 Mark Bleth
was not currently at the location and she provided with
his contact information. W/2 related she was desirous
of a criminal trespass order against S/Fenn, to prevent
him from entering the location and soliciting donations
and violating copyright infringements. I presented W/2
with a Trespass Authorization form which she read and
signed. W/2 related at no time was S/Fenn given
permission to solicit donations inside her place of
business.
While at the location I was contacted by W/4 Larena
Miller who advised me she currently manages the
“Geronimo Trail National Scenic Byway Visitor Center”
which is housed at the same location but in a different
part of the building. W/4 related within the past two
months she has been contacted by S/Fenn and he had

App. 27
publicly insulted her by stating “There is no point in
talking to someone with no intelligence.” 16 W/4
related S/Fenn has been offensive and aggressive in her
prior contacts with him. W/4. related the “Spaceport
Visitor Center” and the “Geronimo Trail National
Scenic Byway Visitor Center” occupy the same building
and she no longer feels safe and secure because S/Fenn
has become too unpredictable in his opposition of the
current use of the building they are located in. W/4
related her staff has shared the same concern with her
as well, and she would like a criminal trespass order
preventing S/Fenn from entering the location and
harassing and or intimidating her and her staff. I
presented W/4 Larena Miller with a Trespass
Authorization form which she read and signed.
On this same date at approximately 1100 hours
Captain Morgan, Sergeant Apodaca and I responded to
316 N. Foch St. Truth or Consequences, New Mexico
87901, the residence of S/Fenn. I contacted S/Fenn who
was standing the threshold of his front door, and
explained the nature of the contact to him. I asked
S/Fenn if he was inside the Spaceport Visitor Center
earlier, and he replied he was. I asked him if during his
visit if he solicited donations inside of the visitors
center, which he replied he did. I asked him if he
presented a woman with a business card and if so if I
could have one of the cards, which he replied he did
solicit a donation and provided me with a business
card. I examined the business card ·and on the front it
stated “Help save our Lee Belle Johnson Senior
Recreation Center call Ron Fenn 575-894-1543”
and the reverse side stated “Spaceport Tour Video
Memory Services Free Video” and in small letters

App. 28
stated “only $10.00 to cover postage and handling
with a donation to: save.o.rec@gmail.com”.
I noticed the business card contained no permanent
address, and no indication the organization was a nonprofit per 501(c)(3) of the Internal Revenue Code. I
asked S/Fenn if he currently possess a City of Truth or
Consequences business license, and he related he did
not, but was thinking of getting one if he 5 can make
enough money. I presented S/Fenn with the two
separate signed Trespass Authorization notices, and he
refused to sign them. In the presence of S/Fenn, I wrote
the words “Refused” on the signature line utilized for
the “Trespasser” and served him with both forms. We
left the location without incident.
On this same date at approximately 1125 hours, I
contacted W/5 Christina Bruch, who related she is
employed as a Clerk for the City of Truth or
Consequences. W/5 conducted a records check and
verified S/Fenn does not currently possess nor has he
applied for a license to conduct business in the City of
Truth or Consequences or possess a permit to solicit
donations per Article I Section 7-1.
On 06/29/2015 at approximately 1000 hours, I
contacted via telephone W/3 Mark Bleth who related he
and his wife W/2 Rosemary Bleth own Follow the Sun
Tours and operate the Spaceport America Visitor
Center. W/3 related on 06/26/2015 at 0830 hours he
was at his place of business located at 301 S. Foch St.
Truth or Consequences, New Mexico 87901, the
Spaceport America Visitor Center. W/3 related when he
opened the doors for business he observed S/Fenn
standing outside. W/3 related S/Fenn inquired what

App. 29
time the center opened, and he informed him it was
open. W/3 related S/Fenn entered the location and
stated “I have not been inside here since all this work
has been done.” W/3 stated S/Fenn told him “I got no
issues with you, your family or your business, my issue
is they took away my building.” W/3 related S/Fenn
during the conversation stated “This building belongs
back to the people.” W/3 stated to S/Fenn “this building
is for the entire community free to enter and interact
with the displays.” W/3 related S/Fenn stated “This
stuff is for kids and kids aren’t people. W/3 related at
that point the contact was turning negative and he
invited two other employees over, and excused himself
from the conversation. W/3 related at no time did he
give S/Fenn permission to solicit donations inside his
place of business, and confirmed the signage regarding
copyright infringement was installed at its current
location on 06/24/2015 the morning of the grand
opening.
Additional Information:
I attempted to contact two employees mentioned by
W/3 Mark Bleth who were identified as Tyson Rush
and his spouse Stacy Rush, without success.
S/Fenn was also involved in a separate incident on the
day of the grand opening which was documented under
case # 2015-1587 for disorderly conduct during the
grand opening event of the Spaceport America Visitor
Center.
All items of evidence will remain with the original
report maintained by the Truth or Consequences Police

App. 30
Department. I have attached copies of all digital
photographs with this report.

App. 31
EXHIBIT 3
REGISTER OF ACTIONS
CASE NO. M-51-MR-2017-00256
State of New Mexico v. Ronald W. Fenn
Case Type: Misdemeanor (Mag)
Date Filed: 06/19/2017
Location: Sierra Magistrate
Judicial Officer: Page, Matthew S.
RELATED CASE INFORMATION
Related Cases
M-51-MR-2017-00293 (Same Party)
PARTY INFORMATION

Defendant

Attorneys
Male
A. Blair Dunn
DOB:
Retained
02/23/1944 505-750316 Foch
6’0”, 168 lbs 3060(W)
Truth or Consequences, NM 87901
DL: NM120418321

Fenn, Ronald

Pro Se
Plaintiff State of New Mexico

Seventh Judicial
District
Attorney - Sierra
County
575-894-9033(W)

App. 32
CHARGE INFORMATION
Charges:
Fenn, Ronald

Statute

Level

Date

1. Resisting,
Evading or
Obstructing
an Officer
(Resisting)

30-22-1(D)

Misdemeanor

06/18/2017

2. Resisting,
Evading or
Obstructing
an Officer
(Resisting)

30-22-1(D)

Misdemeanor

06/18/2017

3. Criminal
Trespass
(Public)

30-14-1(C)

Misdemeanor

06/18/2017

EVENTS & ORDERS OF THE COURT
DISPOSITIONS
06/26/2017

Plea (Judicial Officer: Brown, Alan J.)
1. Resisting, Evading or Obstructing
an Officer (Resisting)
Not Guilty
2. Resisting, Evading or Obstructing
an Officer (Resisting)
Not Guilty
3. Criminal Trespass (Public)
Not Guilty

App. 33
10/11/2017

Disposition (Judicial Officer: Page,
Matthew S.)
1. Resisting, Evading or Obstructing
an Officer (Resisting)
Dismissed by Prosecutor / Nolle
Prosequi
2. Resisting, Evading or Obstructing
an Officer (Resisting)
Dismissed by Prosecutor / Nolle
Prosequi
3. Criminal Trespass (Public)
Dismissed by Prosecutor / Nolle
Prosequi
OTHER EVENTS AND HEARINGS

08/08/2010

MTN: FOR DISMISSAL

06/19/2017

OPN: CRIMINAL COMPLAINT
FILED

06/19/2017

RELEASE SHEET

06/19/2017

ORD: RELEASE ORDER & BOND
FILED

App. 34
06/19/2017

Interim Condition for Fenn, Ronald
- No Weapons
- Random Urinalysis/Breath Test
Weekly
- Notify the court of any change of
address
- Not to Leave County and/or State
Sierra County
- Maintain Contact with Attorney
- Do not violate any federal, state,
tribal, or local laws
- Release on Personal Recognizance
- Other
Not to report to Space Port Vistitor
Center
- Will not take or use drugs without a
prescription
- Not enter any liquor establishments
- Not drive without a license,
registration or insurance
- $50.00 monthly to be paid to Sierra
County Compliance

06/26/2017

Arraignment (8:30 AM) (Judicial
Officer Brown, Alan J.)
Result: Held

06/26/2017

ADVISEMENT OF RIGHTS READ

06/26/2017

WAIVER OF COUNSEL FILED

06/26/2017

DEMAND FOR JURY TRIAL
(Judicial Officer: Brown, Alan J. )

App. 35
06/26/2017

Interim Condition for Fenn, Ronald
- No Weapons
- Random Urinalysis/Breath Test
Weekly
- Notify the court of any change of
address
- Not to Leave County and/or State
Sierra County
- Maintain Contact with Attorney
- Do not violate any federal, state,
tribal, or local laws
- Release on Personal Recognizance
- Other
Do not return to vicinity of the Lee Bell
Johnson Center
- Will not take or use drugs without a prescription
- Not enter any liquor establishments
- Not drive without a license,
registration or insurance
- $50.00 monthly to be paid to Sierra
County Compliance

06/26/2017

NTC: OF EXCUSAL FILED (Judicial
Officer: Brown, Alan J. )

07/05/2017

CERTIFICATE OF
EXCUSAL/RECUSAL FILED
(Judicial Officer: Brown, Alan J. )

07/05/2017

NTC: OF REASSIGNMENT ISSUED
(Judicial Officer: Page, Matthew S. )

07/17/2017

MTN: FOR DISCOVERY/
PRODUCTION FILED

App. 36
07/19/2017

PROSECUTION PACKET FILED
The following documents have been
filed: 5718- Entry of Appearance 5750Witness List

08/25/2017

Pre-Trial Hearing (10:00 AM)
(Judicial Officer Page, Matthew S.)
Result: Held

08/25/2017

Motion Hearing (10:00 AM) (Judicial
Officer Page, Matthew S.)
Result: Commenced and Continued

09/12/2017

ENTRY OF APPEARANCE FILED

10/10/2017

NTC: Notice of Dismissal
Nolle Prosequi

10/11/2017

CLS: DISMISSED WITHOUT
PREJUDICE

10/13/2017

CANCELED Motion Hearing (10:30
AM) (Judicial Officer Page, Matthew
S.) Case Dismissed

App. 37
EXHIBIT 4
REGISTER OF ACTIONS
CASE NO. M-51-MR-2017-00293
State of New Mexico v. Ronald W. Fenn
Case Type: Misdemeanor (Mag)
Date Filed: 06/23/2017
Location: Sierra Magistrate
Judicial Officer: Page, Matthew S.
RELATED CASE INFORMATION
Related Cases
M-51-MR-2017-00256 (Same Party)
PARTY INFORMATION

Attorneys
Defendant Fenn, Ronald W Male
A. Blair Dunn
DOB:
Retained
02/23/1944 505-750316 Foch
6’0”, 168 lbs 3060(W)
Truth or Consequences, NM 87901
DL: NM120418321

Plaintiff State of New Mexico

Seventh Judicial
District
Attorney - Sierra
County
575-894-9033(W)

App. 38
CHARGE INFORMATION
Charges: Fenn,
Ronald W

Statute

Level

Date

1. Resisting,
Evading or
Obstructing an
Officer
(Resisting)

30-22-1(D)

Misdemeanor

06/04/2017

2. Criminal
Trespass
(Public)

30-14-1(C)

Misdemeanor

06/04/2017

EVENTS & ORDERS OF THE COURT
DISPOSITIONS
06/26/2017

Plea (Judicial Officer: Brown, Alan J.)
1. Resisting, Evading or Obstructing
an Officer (Resisting)
Not Guilty
2. Criminal Trespass (Public)
Not Guilty

10/11/2017

Disposition (Judicial Officer: Page,
Matthew S.)
1. Resisting, Evading or Obstructing
an Officer (Resisting)
Dismissed by Prosecutor / Nolle
Prosequi

App. 39
2. Criminal Trespass (Public)
Dismissed by Prosecutor / Nolle
Prosequi
OTHER EVENTS AND HEARINGS
06/23/2017

OPN: CRIMINAL COMPLAINT
FILED

06/23/2017

STATEMENT OF PROBABLE
CAUSE

06/23/2017

Summons Issued - Arraignment/First
Appearance arraignment
6-26-17@8:30am

06/26/2017

Arraignment (8:30 AM) (Judicial
Officer Brown, Alan J.) Result: Held

06/26/2017

ADVISEMENT OF RIGHTS READ

06/26/2017

WAIVER OF COUNSEL FILED

06/26/2017

DEMAND FOR JURY TRIAL
(Judicial Officer: Brown, Alan J. )
in open court.

06/26/2017

Interim Condition for Fenn, Ronald W
- Notify the court of any change of
address
- Obey federal, state or local laws
- Release on Personal Recognizance
- Other
Not to be in or near Lee Bell
JohnsonCetner

06/26/2017

NTC: OF EXCUSAL FILED (Judicial
Officer: Brown, Alan J. )

App. 40
07/05/2017

CERTIFICATE OF
EXCUSAL/RECUSAL FILED
(Judicial Officer: Brown, Alan J. )

07/05/2017

NTC: OF REASSIGNMENT ISSUED
(Judicial Officer: Page, Matthew S. )

07/12/2017

WITHDRAW/DECLINE
PROSECUTION
Notice of Non Appearnce

07/17/2017

MTN: FOR
DISCOVERY/PRODUCTION FILED

07/17/2017

ENTRY OF APPEARANCE FILED

08/08/2017

MTN: FOR DISMISSAL
Motion to Dismiss for Failure to
Establish Essential Elements of
Offense

08/22/2017

RESPONSE TO MOTION OR BRIEF
Response to Motion to Dismiss

08/24/2017

MTN: FOR CONTINUANCE

08/25/2017

Pre-Trial Hearing (10:00 AM)
(Judicial Officer Page, Matthew S.)
Result: Held

08/25/2017

Motion Hearing (10:00 AM) (Judicial
Officer Page, Matthew S.)
Result: Commenced and Continued

08/25/2017

ORD: DENYING

09/12/2017

ENTRY OF APPEARANCE FILED

App. 41
10/10/2017

NTC: Notice of Dismissal
Nolle Prosequi

10/11/2017

CLS: DISMISSED WITHOUT
PREJUDICE

10/13/2017

CANCELED Motion Hearing (10:30
AM) (Judicial Officer Page, Matthew
S.) Case Dismissed

App. 42
EXHIBIT 5
Incident Narrative
Suspicious Activity
17-0444
At about 0930 hours on (Saturday) 05-06-17, I was
dispatched to the Spaceport America Visitor’s Center
(301 S. Pershing) in reference to an unruly subject
there. Upon arrival I made contact with the reporting
person, John Muenster and the suspect, Ronald Fenn
in front of the building.
Mr. Muenster was holding some posters and set them
down when I arrived. Mr. Fenn picked the posters up
and walked inside the building. I asked Mr. Muenster
(volunteer assistant for Geronimo Trails Visitor’s
Center) what was going on. He told me that Mr. Fenn
had been trespassed from the Spaceport Visitor’s
Center and was setting his posters up on a counter
inside the center. Mr. Muenster further informed me
that Mr. Fenn wasn’t supposed to be in the Spaceport
Visitor’s Center due to a trespass order which I was
familiar with. I went into the Spaceport Visitor’s
Center and asked Mr. Fenn if he knew he was
trespassed from there. He told me that the trespass
order was signed by a representative of Sun Tours
which is no longer running the center. I informed Mr.
Fenn that he could put up his propaganda and stay
there, but not to harass any of the visitors that enter
the center. He started telling me about how Spaceport
America was no financial benefit to the City of T. Or C.
and that housing the center in a City building was
illegal, and attempted to quiz me on these issues. I told

App. 43
him that those were not police issues and did not
entertain his questions.
Mr. Muenster was concerned about some expensive
items kept in the center being damaged or stolen. I had
him show the items and took photographs of the items
kept in drawers behind a display counter. I also
informed Mr. Muenster that I would get with Chief
Alirez and attempt to update the trespass order with
the current tenant or the person in charge of the
Spaceport America Visitor’s Center.
No further action was taken on this matter which is for
informational purposes at this time.
Michael S. Apodaca ____________

Date ___

App. 44
EXHIBIT 6
Incident Narrative
Trespass
160961
At about 1055 hours on (Wednesday) 10-05-16, I was
dispatched to the Spaceport America Visitor’s Center in
reference to a delayed trespassing incident. Upon
arrival I made contact with the reporting person, Linda
DeMarino who is employed there as a volunteer.
Ms. DeMarino told me that earlier at about 0950 hours
as subject known to her as Ronald Fenn entered the
center and started being obnoxious. She said Mr. Fenn
was carrying on about his dismay over the building
being used for a visitor’s·center rather than the senior
center it used to be. Ms. DeMarino knew of a prior
incident where Mr. Fenn had been trespassed from
that property and asked him “are you not supposed to
be here?” At that time she used her cellular telephone
to video tape Mr. Fenn’s behavior at which time he
started filming her with his cellular telephone.
Ms. DeMarino showed me the footage she had on her
cellular telephone of Mr. Fenn walking around the
room making sarcastic comments about the displays. I
have prior knowledge of Mr. Fenn being served with a
trespass order served on him for the Spaceport America
Visitor’s Center. However, I also spoke with Chief
Alirez who informed me that he was in contact with the
City of T. or C.’s attorney and he would offer guidance
on how to proceed with this incident. I did ask Ms.
DeMarino to save the video footage in the event
criminal trespass charges are filed.

App. 45
No further action was taken on this incident which is
considered closed at this time.
Michael S. Apodaca ________________ Date ___

App. 46
EXHIBIT 7
T or C Police Department
Case: #170602
Resisting, Evading, Obstructing/Trespassing
Spaceport Visiting Center
301 S. Foch
On the 18th day of June 2017 (Sunday) at
approximately 0923 hours Central Dispatch requested
that I respond to the Spaceport Visitors Center located
at 301 S. Foch in reference to Ron Fenn violating a
trespass order.
Upon arrival I made contact with a male subject whom
I known from past incidents as Ronald Fenn inside of
the Spaceport Visitors Center. I advised Mr. Fenn that
he was trespassing and that he needed to leave the
build. Mr. Fenn stated to me that he was not
trespassing and I then advised him that I had prior
notice that he was trespassed and that he was also
escorted out of the buildings.
Mr. Fenn stated to me that he was protesting of how
the building was taken away from the citizens of T or
C and that he was waiting for people to come in and
sign his petition and that he would not leave until they
closed the building at 2:00 p.m.
I asked Mr. Fenn numerous times to leave premises
and he refused, upon arrival of Chief Alirez he also
asked Mr. Fenn to leave the building because he has
been trespassed and he refused which at that time Mr.
Finn was taken into custody for Resisting Evading or
Obstructing an Officer and for violation of a trespass
order.

App. 47
/s/___________________________
Ted Ontiveros
Patrol Officer/SRO/C18
18 June 2017

App. 48
EXHIBIT 8
COPPLER LAW FIRM, P.C.
A PROFESSIONAL CORPORATION
ATTORNEYS AND COUNSELORS AT LAW
645 DON GASPAR AVENUE
SANTA FE, NEW MEXICO 87505
TELEPHONE
(505) 988-5656
TELECOPIER
(505) 988-5704
FRANK R. COPPLER
GERALD A. COPPLER*
JOHN L. APPEL
KATI KOPPLER
JOSHUA D. HOWARD
ZACH COOK (of Counsel)
* also licensed in Texas
September 14, 2017
Certified Mail
No. 7008 0500 0001 4684 3369
Mr. Ron Fenn
316 N. Foch Street
Truth or Consequences, NM 87901
Re:

Misrepresentation as a Purported Officer
of the City
Our No.: 4130.01

App. 49
Dear Mr. Fenn:
You are hereby instructed to cease and desist
from misrepresenting yourself as an officer of the
City of Truth or Consequences.
This letter is being sent to you at the request of the
City Manager and the Mayor of Truth or Consequences
(the “City”) As we believe you are aware, Coppler Law
Firm. P.C., serves as counsel for the City on various
matters, as requested by the City Manager or the City
Commission.
The City for some time has been aware that you
distribute “business cards” bearing a likeness of the
City’s official seal and misrepresenting yourself as a
City official with the title of “Co-CEO.” The City has
more recently learned that you have distributed
documents bearing a similar likeness of the municipal
seal and purporting to command third parties to take
certain actions and make payments on your
instructions as “Co-CEO” of the City. A copy of one
such document, a “Demand Notice” dated August 9.
2017, and directed to former City Manager Jaime
Aguilera, is enclosed. The City has also been informed
that you have sent materials to the New Mexico
Department of Transportation falsely representing
yourself as an officer or employee of the City. The City
does not know how many similar documents you may
have sent to third parties who may not be aware that
your representations and demands as a purported City
official are entirely fraudulent.
As you should be aware. the City as a municipal
corporation acts only through its Commission and its

App. 50
elected and appointed officers. You are neither a
member of the Commission nor an elected or appointed
officer of the City. Your fraudulent misrepresentation
of yourself as an officer of the City, coupled with your
issuance of illegal monetary demands and other
commands to third parties in that purported capacity,
can no longer be tolerated. As a matter of protecting
both the City and the general public, the City demands
that it cease immediately. If it does not, the City will be
forced to take appropriate legal action against you.
Very truly yours,
COPPLER LAW FIRM, P.C.
/s/__________________________
John L. Appel
Encl.
cc: Mayor and Commissioners
Juan Fuentes, City Manager
Jay Rubin, City General Counsel
Renee Cantin, City Clerk

App. 51
[SEAL]

RON FENN
Co-CEO, City of
Consequences, NM

Truth

or

DEMAND NOTICE
Jaime Aguilera
5421 Alden Dr
Santa Theresa, NM 88008

9 August 2017

On behalf of the rate and taxpayers of Truth or
Consequences. For consideration of Dues Payments
made on your behalf to the Rotary Club of T or C from
the Public coffers. Due to the Private, social and
business nature of this organization and in respect to
the Anti-Donation Clause of New Mexico Constitution
(Art. IX, Sec 14), these payments are likely to be
prohibited in a court of competent jurisdiction, should
such need be pursued.
Your repayment of $1,539.00 (Fifteen Hundred thirty
Nine Dollars) principle and reasonable interest to be
calculated and assessed would be greatly appreciated
within a reasonable period, (60 days) to avoid further
repercussions.
This notice covers payments on your behalf from
September 26, 2007 through September 19, 2009
Please remit payment by check to: Finance Director,
505 Sims Street, T or C, NM 8790, for credit to the
General Fund.
Your cooperation will be greatly appreciated.

App. 52
Sincerely,

Ron Fenn
Co-CEO, City of Truth or Consequences
575-894-1543
cc Randy van Vleck
NMML General Counsel
Rvanvleck@NMML.org

316 N. FOCH STREET • TRUTH OR
CONSEQUENCES, NM • 87901-2219
PHONE: 575-894-1543 • CELL: 575-740-8571

